  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


        Audit of the Federal Emergency
         Management Agency’s Public
      Assistance Grant Funds Awarded to
       the Macon Water Authority After
            Tropical Storm Alberto




             Office of Audits
OIG-07-06                       November 2006
Table of Contents/Abbreviations 


  Executive Summary ......................................................................................................................... 1 


  Background ...................................................................................................................................... 2 


  Results of Audit ............................................................................................................................... 3 


       Ineligible Project Costs .............................................................................................................. 3 

       Accounting Errors.................................................................................................................... 11 

       Small Project not Completed ................................................................................................... 12 

       Interest Earned on Federal Funds ............................................................................................ 12

       Recommendations.................................................................................................................... 13 


  Appendices

       Appendix A:                 Objectives, Scope, and Methodology. ....................................................... 14 

       Appendix B:                 Schedule of Projects Audited, Questioned Costs, and Funds 

                                   That Could Have Been Put to Better Use .................................................. 15 

       Appendix C:                 Schedule of Funds Awarded for the Replacement of the Riverside 

                                   Water Treatment Plant ............................................................................... 17 

       Appendix D:                 FEMA Region IV Responses to the Draft Report ..................................... 18 

       Appendix E:                 Major Contributors to this Report.............................................................. 27 

       Appendix F:                 Report Distribution .................................................................................... 28 


  Abbreviations and Acronyms

       Authority              Macon Water Authority, Macon, Georgia 

       CFR                    Code of Federal Regulations 

       DSR                    Damage Survey Report 

       FEMA                   Federal Emergency Management Agency 

       GEMA                   Georgia Emergency Management Agency 

       OIG                    Office of Inspector General 

       Stafford Act           Robert T. Stafford Disaster Relief and Emergency Assistance Act 

                                                                                Audit
OIG                                                                             Report
Department of Homeland Security
Office of Inspector General
Executive Summary
                The Office of Inspector General (OIG) audited public assistance grant funds
                awarded by the Federal Emergency Management Agency (FEMA) to the
                Macon Water Authority, Macon, Georgia (Authority) after Tropical Storm
                Alberto. The objective of the audit was to determine whether the Authority
                expended and accounted for FEMA funds according to federal regulations and
                FEMA guidelines. During the audit, we added an objective to determine
                whether FEMA’s decision to fund the replacement of the Authority’s
                Riverside Water Treatment Plant was appropriate.

                We determined that FEMA’s decision to fund the replacement and relocation
                of the Authority’s Riverside Water Treatment Plant was not a cost-effective or
                practicable alternative to repairing the existing facility and mitigating the
                effects of future flooding when considering the $93.5 million cost of the new
                plant and the fact that disaster-related repairs had restored the damaged plant
                to its pre-disaster condition. Further, FEMA’s alternatives analysis required
                by floodplain management regulations was flawed, documentation to support
                replacing the plant contained gaps, and actions to authorize federal funding to
                replace and relocate the plant were contrary to federal regulations and a
                wasteful use of taxpayers’ dollars.

                FEMA Region IV officials did not concur with our conclusion and said:
                (1) FEMA acted within its statutory authority and thus, fulfilled the intent of
                the Robert T. Stafford Disaster Relief and Emergency Assistance Act
                (Stafford Act, Public Law 93-288, as amended), the purposes of floodplain
                management, and the aims of mitigation against future critical infrastructure
                interruption; and (2) approval authority rested solely within FEMA’s
                discretion, and the Authority relied upon FEMA’s approval authority and
                representations and acted in good faith when it relocated its facility from the
                floodplain.

                We also questioned $88,093 in duplicate expenditures and monies for an
                uncompleted small project, and identified $245,708 in interest earned on
                FEMA-advanced funds. The Region concurred with those findings and
                indicated that its final decision was dependent on evidence provided by the
                Authority.




                 Audit of FEMA’s Public Assistance Grant Funds Awarded to
                  the Macon Water Authority After Tropical Storm Alberto

                                          Page 1
Background
                              Section 406 of the Stafford Act authorizes federal grants to state and local
                              governments for the repair, restoration, reconstruction, or replacement of
                              public facilities damaged or destroyed by a major disaster. Title 44 of the
                              Code of Federal Regulations (CFR) implements the Stafford Act and among
                              other things provides for floodplain management and wetland protection (Part
                              9), uniform administrative requirements for grants to state and local
                              governments (Part 13), and rules for federal disaster assistance (Part 206),
                              including public assistance project administration (Subpart G) and public
                              assistance eligibility (Subpart H).

                              As a result of Tropical Storm Alberto that occurred in July 1994, the Macon
                              Water Authority received a public assistance grant award of $102.6 million
                              from the Georgia Emergency Management Agency (GEMA), a FEMA
                              grantee, for repairs to and replacement of damaged public facilities. The
                              award relative to FEMA Disaster Number 1033-DR-GA provided 90 percent
                              federal funding for 25 large projects and 60 small projects.1 The audit covered
                              the period July 1994, to November 2004, and included a review of 24 large
                              projects and 60 small projects with a total award of $100.1 million.

                              According to 44 CFR § 13.42, grantees and subgrantees are required to retain
                              all financial and programmatic records, supporting documents, statistical
                              records, and other records for at least 3 years after the grantee submits its final
                              expenditure report. Although the disaster occurred over 12 years ago, one
                              large project remained open at the time of our audit. Therefore, GEMA and
                              the Authority had not submitted final expenditure reports or a final project
                              completion and certification report. As such, Authority records were available
                              for our review.




1
    Federal regulations in effect at time of the disaster set the large project threshold at $42,400.

                               Audit of FEMA’s Public Assistance Grant Funds Awarded to
                                the Macon Water Authority After Tropical Storm Alberto

                                                              Page 2
Results of Audit
         Ineligible Project Costs
                           The Authority received a $93.5 million public assistance award to replace the
                           Riverside Water Treatment Plant (facility) at a new location.2 Replacement of
                           the facility was not eligible for federal funding because the Authority had
                           already completed FEMA-approved repairs that restored the existing facility
                           to its pre-disaster condition, and FEMA’s actions to authorize federal funding
                           to replace the facility at a new location were contrary to federal regulations.

                           As a result of the July 1994 disaster, FEMA awarded the Authority
                           $1,001,752 for debris removal and emergency work (Categories A and B) to
                           restore the operation of the facility,3 and an additional $3,363,844 for
                           permanent work (Category F - Utilities) to restore the facility to its
                           pre-disaster condition.4 FEMA records showed that as early as August 1994,
                           the facility was back in operation.5 We reviewed Authority records showing
                           that the facility was originally designed and built to produce 48 million
                           gallons per day, but based on demand, it was only producing 29 million
                           gallons of drinkable water per day before the disaster. The Authority’s project
                           records showed that following restoration, demand increased and the facility’s
                           output and efficiency improved to 31 million gallons per day. Those records
                           also showed that the facility continued operation under the same unrestricted
                           water production permit that was in place prior to the disaster. Both FEMA
                           and the Authority confirmed that the facility’s efficiency improved as a result
                           of the disaster repairs. However, in September 1994, design of a “new” 48
                           million gallon per day water treatment plant began, and in November 1994,
                           FEMA approved replacing the facility at a new site. Construction began in
                           November 1996 and the last of the work was completed in May 2003. In
                           total, FEMA awarded the Authority $93,466,334 for the engineering and
                           construction of the replacement facility. See Appendix C for the schedule of
                           projects, project purposes, amounts awarded and expended, work start dates,
                           and final inspection dates. In addition to the engineering and construction of




2
  FEMA Project records indicated that (1) the plant began operation at the turn of the 20th Century, (2) the oldest
remaining structures at the time of the disaster were built in the 1930s, and (3) the newest structures were built in the
early 1970s. Those records also indicated that at the time of the disaster, the plant could supply 48 million gallons per
day during peak demand periods but the typical output was between 30 and 35 million gallons per day. This varied from
Authority records that supported a typical output of 29 to 31 million gallons per day.
3
  Primary Damage Survey Reports (DSRs) 90854 and 86464.
4
  Primary DSRs 90855 and 86462.
5
  FEMA project records indicated that final inspection for debris removal and emergency work was completed by
late-March 1995 and facility restoration work was completed in January 1996.

                            Audit of FEMA’s Public Assistance Grant Funds Awarded to
                             the Macon Water Authority After Tropical Storm Alberto

                                                         Page 3
                          the replacement facility, FEMA also awarded $2.5 million for the demolition
                          of the previously restored facility.6

                          Section 406 of the Stafford Act authorizes federal assistance for repair,
                          restoration, reconstruction, or replacement of certain public and private
                          nonprofit facilities damaged or destroyed by a major disaster (Public
                          Assistance). According to 44 CFR § 206.226(b) [October 1993], FEMA is
                          authorized to provide federal assistance to restore damaged facilities on the
                          basis of the design of such facilities as they existed immediately prior to the
                          disaster without allowing for non-code required improvements. In addition,
                          § 206.226(d) provides that a decision to replace a damaged facility should be
                          supported with a repair versus replacement analysis showing that repair costs
                          equal or exceed 50 percent of replacement costs. Further, § 206.226(e)(1)
                          states, “The Regional Director may approve funding for and require
                          restoration of a destroyed facility at a new location when: (i) The facility is
                          and will be subject to repetitive heavy damage; (ii) The approval is not barred
                          by other provisions of title 44 CFR; and (iii) The overall project, including all
                          costs, is cost effective.”

                          FEMA Region IV comments regarding restoration of the old facility. The
                          Region disagreed with our conclusion that repairs to the damaged facility
                          restored it to its pre-disaster condition. The Region asserted that while
                          permanent in nature, the work actually performed restored the plant to the
                          “...minimum level of production necessary to meet the daily demand and to
                          end the three-week-long emergency distribution of drinking water to over
                          150,000 Macon/Bibb County residents, businesses, and industries.” The
                          Region noted that contemporaneous project notes indicated that only essential
                          facility components were repaired and thus, supported its conclusion that the
                          facility, in total, was not restored to it pre-disaster condition.

                          OIG comments and analysis. The FEMA and Authority project records we
                          reviewed did not support that the facility was repaired to meet minimal
                          production. In fact, DSR 90855 authorized the Authority to clean, repair, and
                          restore all plant machinery, equipment, and control systems to their
                          pre-disaster operating function and condition. In addition, a summary
                          attached to that DSR noted that on August 2, 1994, the plant capacity returned
                          to “…100% of daily demand for water.” We noted that restoration work
                          continued after the 3-week emergency water distribution period and the public
                          assistance completion date indicated in FEMA’s final inspection report was
                          January 7, 1996. Further, as we noted earlier, the facility continued operating
                          under the same unrestricted water production permit before and after the


6
  DSR 14711 that approved the demolition of the restored facility was in process during our fieldwork and was not
included in our sample for review.

                           Audit of FEMA’s Public Assistance Grant Funds Awarded to
                            the Macon Water Authority After Tropical Storm Alberto

                                                        Page 4
                          disaster, and production did not decline prior to March 29, 2001, when
                          operations transferred to the new facility.

                          While FEMA funded repairs that restored the Authority’s facilities to
                          pre-disaster condition, on July 21, 1994, the Authority authorized a contract to
                          prepare documents requested by GEMA and FEMA for constructing a new
                          water treatment plant at a different location using federal funds.7 In an
                          unsigned and undated site assessment, FEMA recommended relocating a new
                          plant outside the floodplain. An unsigned project background and approval
                          document dated November 30, 1994, indicated that based on the design and
                          engineering report prepared by the Authority’s contractor, FEMA’s National
                          Office approved the relocation project. FEMA supported its decision to
                          replace the facility by erroneously determining that:

                          • 	 The cost of restoring the damaged facility to pre-disaster condition exceeded
                              50 percent of the cost to replace it and thus, replacement was appropriate under
                              federal regulations.

                          • 	 Executive Order 11988 and federal floodplain regulations [44 CFR
                              § 9.11(d)] prohibited FEMA from making major improvements to the
                              damaged facility at its current location.

                          As discussed in greater detail below, our review of FEMA and Authority
                          records showed that FEMA’s repair versus replacement analysis was
                          completed incorrectly, and Executive Order 11988 as implemented by 44 CFR
                          Part 9 did not require FEMA to replace the facility outside the floodplain.

                          Repair versus Replacement Analysis not Properly Completed

                          Federal regulations state that a facility is considered repairable when disaster
                          damages do not exceed 50 percent of the cost of replacing a facility to its pre-
                          disaster condition, and it is feasible to repair the facility so that it can perform
                          the function for which it was being used as well as it did immediately prior to
                          the disaster [44 CFR § 206.226(d)(1)]. While the repair versus replacement
                          ratio is simply computed by dividing the estimated repair cost by the
                          estimated replacement cost, subsequent to this disaster, FEMA provided
                          guidance to Regional Offices and Federal Coordinating Officers covering
                          various interpretations of this regulation.8 The guidance recognized that
                          disaster damage in some cases had been misinterpreted to include all FEMA

7
  Authority Board of Directors’ meeting minutes dated July 21, 1994. The contractor’s report, entitled Water Treatment
Plant at Town Creek Reservoir, dated September 1994, provided the preliminary scope of work for a 60 million gallon
per day facility, and was included with FEMA project documentation.
8
  Response and Recovery Directorate Guidance No. 4511.61E dated June 1, 1995. This guidance was later incorporated
in FEMA’s Public Assistance Guide (FEMA 286 – September 1996) and made available to Public Assistance applicants.

                           Audit of FEMA’s Public Assistance Grant Funds Awarded to
                            the Macon Water Authority After Tropical Storm Alberto

                                                       Page 5
                           eligible costs rather than costs related to the repair of the disaster damage
                           only. FEMA clarified the “50% Rule” as follows:

                               [T]he determination of a facility for replacement will be
                               calculated by the following fraction: The cost of repair of the
                               disaster damage (repair of the damaged components only,
                               using present day materials and methods) divided by the cost of
                               replacement of the facility with a facility of equivalent
                               capacity, using current codes for new construction. If this
                               calculation is greater than 50%, then replacement is considered
                               to give a better return on the taxpayers’ investment, and is thus
                               eligible for FEMA funding under § 206.226(d)(1).

                           The guidance specified that the estimated repair costs used for the calculation
                           do not include the costs of any triggered or mandatory upgrades, site work, or
                           applicable soft costs even though these costs may be eligible for FEMA
                           funding.

                           According to the repair versus replacement requirement of 44 CFR
                           § 206.226(d), FEMA summarized its methodology for determining the ratio of
                           repair and replacement costs in a site assessment document attached to the
                           November 30, 1994 project background and approval document. We
                           reviewed FEMA’s methodology and supporting records and determined that
                           FEMA used incorrect cost estimates and calculated an incorrect ratio. We
                           concluded that the analysis incorrectly supported federal funding for a new
                           facility.

                           Even though FEMA funded most of the debris removal and emergency and
                           permanent work totaling $4,365,596 to bring the facility back to its pre-
                           disaster condition by January 1995,9 in November 1994, FEMA estimated
                           repair costs at $26.9 million, including $7.0 million in facility repairs and
                           $19.9 million in upgrade/mitigation work to protect the facility against future
                           damages. This repair estimate was then divided by an estimated $39.4 million
                           replacement cost10 to arrive at the 68 percent repair versus replacement ratio.
                           As previously stated, FEMA is authorized to provide federal assistance to
                           restore damaged facilities on the basis of the design of such facilities as they
                           existed immediately prior to the disaster without allowing for non-code
                           required improvements (or mitigation to undamaged components of a facility).

9
  This date represents the latest date that funding was provided to the Authority but as indicated earlier, the plant was
operational in August 1994.
10
   In its site assessment, FEMA used a replacement cost of $39.4 million. The source of this figure was not clear from
the information FEMA provided to us during the audit. In its response to this finding, FEMA Region IV provided us an
Authority-prepared document entitled Calculation of Current Value of Existing Water Treatment Plant that showed a
replacement cost of $39.4 million.

                            Audit of FEMA’s Public Assistance Grant Funds Awarded to
                             the Macon Water Authority After Tropical Storm Alberto

                                                         Page 6
                           Thus, the disaster damage estimate should have only included estimated
                           facility repair cost. Using FEMA’s facility repair estimate ($7.0 million) and
                           replacement estimate ($39.4 million) results in repair versus replacement ratio
                           of 17.8 percent, well below the 50 percent required to justify facility
                           replacement.

                           Review of FEMA records showed that FEMA not only erroneously included
                           upgrade/mitigation work in the disaster damage repair estimate but it did not
                           use the best repair and replacement costs available as discussed below.

                           • 	 The $7 million in estimated repair costs was based on an engineering
                               estimate completed 3 months prior to FEMA’s repair versus replacement
                               calculation.11 As of November 1994, the restoration of the damaged
                               facility was substantially complete and most of the $4.37 million in debris
                               removal and emergency and permanent repair costs was already known to
                               FEMA. Using this actual repair cost of $4.37 million and FEMA’s initial
                               replacement cost of $39.4 million results in a repair versus replacement
                               ratio of 11.1 percent.

                           • 	 FEMA records supported $77 million in estimated replacement costs12
                               versus the $39.4 million used to determine the ratio. Using the actual cost
                               of facility repairs ($4.37 million) and the $77 million replacement cost
                               results in a repair versus replacement ratio of 5.7 percent.

                           FEMA Region IV comments regarding estimated and actual repair costs
                           and replacement costs. The Region indicated that the application of the 50%
                           Rule was undertaken after it was determined that relocation of the plant was
                           the most practicable alternative. It indicated that it was not possible to
                           anticipate the replacement cost of the new facility in August 1994 and thus the
                           Region used the best available data for relocation/construction costs. The
                           Authority provided the Region with its Calculation of Current Value of
                           Existing Water Treatment Plant (Attachment A to the Region’s response) that
                           estimated the replacement cost of the existing plant at $39.4 million, which
                           was used in the 50% Rule calculation. For the repair side of the calculation,
                           FEMA used a $7.0 million repair estimate (the $4.17 million “…actual repair
                           costs did not reflect all the costs that would have been necessary to return the
                           facility to its pre-disaster design and function.”) plus $19.9 million mitigation
                           costs (estimated costs to be in compliance with Executive Order 11988 and
                           Part 9 of 44 CFR). The Region recognized that under current guidance,

11
   The engineering estimate was completed in September 1994 and project approval occurred in November 1994 after the
ratio was calculated in an unsigned and undated site assessment.
12
   A preliminary engineering report, prepared by the Authority’s contractor, estimated the cost of a 60 million gallons per
day (MGD) plant at $94.3 million. Using this preliminary estimate, FEMA estimated that the cost of a 48 MGD plant
would be $77.0 million.

                            Audit of FEMA’s Public Assistance Grant Funds Awarded to
                             the Macon Water Authority After Tropical Storm Alberto

                                                         Page 7
mitigation (or codes and standards upgrades) costs would not be included in
the calculation but it was reasonable to add mitigation costs to the estimated
repair costs in 1994 to be in compliance with floodplain management orders
and regulations. In that regard, the Region pointed out that clarification of
FEMA regulations on the 50% Rule occurred a year after the disaster. In
total, the Region believed that the repair versus replacement analysis was
properly completed based on the information available at the time.

OIG comments and analysis. The project background and approval
document we discussed earlier alludes to a previous report that applied federal
regulations to the Authority’s plant in the floodplain. The undated site
assessment applied the preparer’s interpretation of the regulations to three
alternatives and computed the repair versus replacement ratio at 68% using
the figures discussed in the Region’s response. This ratio was used as part of
the basis for recommending relocation of the existing plant (Alternative 3)
that was approved by FEMA Headquarters in November 1994.

As we pointed out in our discussion of permanent repairs to the existing
facility, FEMA and Authority project records support that the existing plant
was 100 percent operational in August 1994. While all actual repair costs
may not have been known in total at that time, FEMA’s records do not
sufficiently support $7 million in total estimated repair costs or $19.9 million
in estimated mitigation costs. While the Region commented on the fact that
misinterpretations of the 50% Rule were not uncommon in 1994, FEMA’s
guidance in June 1995, a year after the disaster, only clarified the regulations
and did not change them.

Contrary to the Region’s response, we concluded that FEMA did not use the
best available information at the time to assess repair versus replacement
costs. For example, the Authority’s own contractor issued a September 1994
report entitled Water Treatment Plant at Town Creek Reservoir wherein it
estimated that the cost to construct a 60 million gallon per day plant was
$94.3 million. FEMA’s November 1994 project background and approval
document prorated the contractor’s total estimated cost to bring it in line with
a 48 million gallon per day facility and arrived at a $77.02 million
replacement estimate. Using this replacement estimate in lieu of the
unsubstantiated $39.4 million replacement cost estimate provided by the
Authority results in a repair versus replacement ratio of only 35 percent even
if we accept FEMA’s unsupported $7 million repair estimate and
unsubstantiated $19.9 million in estimated mitigation costs.




Audit of FEMA’s Public Assistance Grant Funds Awarded to
 the Macon Water Authority After Tropical Storm Alberto

                          Page 8
                          Relocation of Facility Not Required by Federal Rules

                          FEMA also justified the replacement of the facility on the premise that the
                          damaged facility was located in a 100-year floodplain, and Executive Order
                          11988 (implemented by 44 CFR Part 9), related to floodplain management,
                          required FEMA to locate the replacement facility outside the floodplain
                          because a practicable alternative existed to do so. In its summarized analysis,
                          FEMA documented that 44 CFR § 9.11(d) does not allow any new
                          construction or substantial improvements in a floodway or any construction
                          that would result in increased flood levels, with two exceptions not applicable
                          here.

                          We agree with FEMA’s analysis in that Executive Order 11988 requires
                          federal agencies to reduce the risk of floods and to preserve the natural and
                          beneficial values served by floodplains [44 CFR § 9.2(b)(7)]. However, we
                          disagree that federal regulations barred FEMA from replacing or restoring the
                          facility at its original location. According to § 9.9(b), FEMA was required to
                          identify and evaluate practicable alternatives to carrying out a proposed action
                          in floodplains or wetlands. These alternatives included: (1) locating
                          alternative sites outside the floodplains or wetlands, (2) taking alternative
                          actions serving the same purpose of the proposed alternative with less affect
                          on the floodplains or wetlands, and (3) taking no action because the site itself
                          is a practicable location based on such factors as the natural environment,
                          social concerns, economic aspects, and legal constraints.13 Further, § 9.11 sets
                          out mitigation actions required if a preliminary determination is made to carry
                          out an action that affects or is in a floodplain or wetland, and § 9.11(d)
                          pertains primarily to new construction or substantial improvements in a
                          floodway. The regulations required FEMA to consider the costs of relocating
                          the facility in determining whether a practicable alternative existed outside the
                          floodplain [44 CFR Part 9] and to ensure that the relocation of the facility was
                          cost effective [44 CFR 206.226(e)]. In our view, the expenditure of
                          $93.5 million to construct a new facility was not cost effective and therefore,
                          relocation was not a practicable alternative.

                          FEMA Region IV comments regarding relocating the facility outside the
                          floodplain. FEMA Region IV did not concur with our conclusion that
                          relocation of the facility was not required by federal rules and indicated that
                          based on its review of project records and files, FEMA considered three
                          alternatives that would assist in lessening future damages to the facility.
                          FEMA asserts that two of the alternatives—mitigating at the existing site and
                          constructing a levee—were rejected because they would raise flood
                          elevations. Thus, FEMA considered the third alternative, relocation, as the

13
  44 CFR § 9.9(c) requires FEMA to analyze the practicability of taking no action including the costs of space,
construction, services, and relocation.

                           Audit of FEMA’s Public Assistance Grant Funds Awarded to
                            the Macon Water Authority After Tropical Storm Alberto

                                                         Page 9
only practicable alternative. FEMA also considered the health, safety, and
economic impacts when a community is without potable water.

The Region also points out that in October 2004, we noted that mitigation
funds to protect the facility against future damage were not provided and that
not mitigating against future damage was a violation of Executive Order
11988. The response concludes that based on the Regional Director’s
authority to evaluate and implement practicable alternatives, the relocation
project was determined by FEMA to be eligible and the project was approved.

OIG comments and analysis. While the Region believes it acted in an
appropriate and responsible manner when it recommended project approval to
FEMA Headquarters, FEMA has not produced a persuasive analysis showing
that relocation outside the floodplain was practicable given its substantial
costs. In fact, FEMA’s contemporaneous 4-page site assessment and
alternatives analysis and its 2-page project background and approval
document are minimal at best. The expenditure of $93.5 million in public
assistance funds to construct a new facility was not cost effective and
therefore, relocation was not a practicable alternative especially when
considering the costs associated with the alternative to mitigate at the existing
site identified in FEMA’s site assessment document.

Conclusion. FEMA Region IV said that it acted appropriately and within its
statutory authority to approve the relocation of the Authority’s water treatment
plant. Further, the Region asserted that the grantee, GEMA, and the
subgrantee, the Authority, complied with their respective responsibilities in
administering grant funds as outlined in 44 CFR. The Region did not concur
with our initial conclusion that $93.5 million in costs claimed by the Authority
be disallowed and recommended that this finding be removed from the audit
report.

The Region’s comments have not altered our conclusion that relocation was
not a practicable alternative for the reasons discussed above. However, those
comments have altered the recommendation we initially made in our
August 29, 2006 draft report. While we still question the grant award to
replace the Riverside Water Treatment Plant in a new location, we are not
recommending that the $93.5 million in costs associated with construction of
the new water treatment plant be disallowed from the Authority’s claim. This
finding reports on a lost opportunity for FEMA to have put this funding to a
better, more practicable use.

In our view, FEMA failed to act as good stewards of public funds in
approving this grant especially when one considers that FEMA’s decision was
based on a contemporaneous 4-page site assessment and alternatives analysis

Audit of FEMA’s Public Assistance Grant Funds Awarded to 

 the Macon Water Authority After Tropical Storm Alberto 


                         Page 10
          and a contemporaneous 2-page project background and approval document.
          FEMA’s failure to document the legitimacy of its funding decision calls into
          question its propriety.

          The lack of, and gaps in, project documentation and the anecdotal nature of
          FEMA’s decision making process relative to this award lead us to conclude
          that FEMA must better substantiate its funding decisions such as the one
          reviewed here. FEMA needs to develop policies and procedures that require
          grant awarding officials to perform comprehensive analyses of funding
          options to ensure that disaster assistance funds are spent wisely and
          effectively. Those policies and procedures should establish record keeping
          requirements for all analyses and documentation relative to the decision
          making process. The basis for grant awards should be “transparent” and
          readily available for external oversight.

Accounting Errors
          The Authority’s claim for project 90855 contained $63,093 in accounting
          errors consisting of expenditures that were posted in duplicate. According to
          44 CFR § 13.20(b)(1), the Authority is required to accurately report the results
          of financially assisted activities. Table 1, below, identifies the amounts the
          Authority recorded in duplicate in its accounting system.

                                                 Table 1
                                                      Actual Cost      Amount Recorded
                 Source           Cost Claimed         Incurred          in Duplicate
           Contractor Invoice       $ 15,524           $ 7,762              $ 7,762
           Contractor Labor            31,200           15,600               15,600
           Contractor Invoice          70,332           35,166               35,166
           Contractor Invoice           9,130            4,565                4,565
           Total                    $126,186           $63,093              $63,093

          Since the accounting errors resulted in the recording and claiming of the
          expenditures twice, the $63,093 is questioned.

          FEMA Region IV comments. Region officials concurred with this finding
          and indicated that subject to receipt of evidence to the contrary from the
          Authority, and upon its final decision sustaining the finding, FEMA will de-
          obligate $63,093.

          OIG comments and analysis. Based on the Region’s response, we consider
          this finding resolved. However, it will remain open for follow up action until
          we receive the final decision sustaining the finding and the supporting
          documentation indicating that the de-obligation has occurred.


           Audit of FEMA’s Public Assistance Grant Funds Awarded to
            the Macon Water Authority After Tropical Storm Alberto

                                   Page 11
           Small Project not Completed
                         The Authority claimed $25,000 for a small project that was not completed.
                         According to 44 CFR § 206.205(a), FEMA may require the Authority to
                         return funds advanced for any small project when the project is not completed
                         in accordance with the approved scope of work. In reviewing the Authority’s
                         certification of small project completions, we noted that the Authority did not
                         complete project 90893. This project provided funding to cleanup a diesel
                         spill, a task Authority officials explained was not done. Therefore, the
                         $25,000 claimed for small project 90893 is questioned.

                         FEMA Region IV comments. Region officials concurred with this finding.
                         The Region plans to seek confirmation from the Authority that the small
                         project was not completed. Upon its final decision sustaining the finding,
                         FEMA will de-obligate $25,000.

                         OIG comments and analysis. Based on the Region’s response, we consider
                         this finding resolved. However, it will remain open for follow up action until
                         we receive the final decision sustaining the finding and the supporting
                         documentation indicating that the de-obligation has occurred.

           Interest Earned on Federal Funds
                         The Authority deposited $46,787,500 of FEMA funds in an interest bearing
                         account and earned interest of $245,708. However, the Authority did not
                         account for the interest to FEMA as required by Federal regulations.14

                         According to 44 CFR § 13.21(c) grantees may advance funds to subgrantees
                         only where adequate procedures are in place to minimize the time elapsed
                         between receipt and disbursement of the funds. GEMA drew down and
                         disbursed FEMA funds to the Authority based upon its practice of funding
                         large projects in 25 percent increments. However, GEMA did not monitor the
                         Authority’s activities effectively to ensure that the funds were spent timely.
                         For example, GEMA received a monthly report of expenditures from the
                         Authority; however, the reports were not used to verify that the Authority had
                         disbursed the funds. We determined that the Authority took an average of 83
                         days to liquidate the advances during which it earned $245,708 in interest on
                         those advanced funds.

                         In the absence of an exception under the Intergovernmental Cooperation Act,
                         44 CFR § 13.21 (i) indicates that grantees and subgrantees are required to
                         remit to FEMA the interest earned on advances at least quarterly. FEMA

14
     44 CFR § 13.21(i)

                         Audit of FEMA’s Public Assistance Grant Funds Awarded to
                          the Macon Water Authority After Tropical Storm Alberto

                                                 Page 12
         Region IV should take appropriate action to determine if the interest earned on
         advances was properly accounted for under the Intergovernmental
         Cooperation Act, and if not, should recover the $245,708 in interest earned on
         the public assistance funds provided to the Authority; $235,570 under project
         14718 and $10,138 under project 14719.

         FEMA Region IV comments. Region officials agreed with the finding
         subject to receipt of evidence to the contrary from the Authority, or validated
         information showing different amounts earned. Upon FEMA’s final decision
         sustaining the finding, the Authority will be directed to remit the interest
         earned on FEMA funds. In addition, FEMA will instruct GEMA of its
         requirements to have procedures in place to minimize the time elapsed
         between subgrantees’ receipt and disbursement of federal funds.

         OIG comments and analysis. Based on the Region’s response, we consider
         this finding resolved. However, it will remain open for follow up action until
         we receive the final decision sustaining the finding and the supporting
         documentation indicating that a bill for collection has been issued or the
         interest earned on FEMA funds has otherwise been recovered.

Recommendations
         We recommend that the Under Secretary, Federal Emergency Management:

         1. 	 Develop policies and procedures that require FEMA grant awarding
              officials to perform comprehensive analyses of funding options to ensure
              that disaster assistance funds are spent wisely and effectively, and
              establish record keeping requirements for all analyses and documentation
              relative to the decision making process.

         2. 	 Require FEMA Region IV to: (a) obtain comments from the Authority
             regarding the accounting errors and the uncompleted small project
             discussed in this report and (b) disallow and de-obligate $88,093 in costs
             claimed by the Authority if appropriate.

         3. 	 Require FEMA Region IV to recover $235,570 (or a validated different
              amount) in interest earned by the Authority on FEMA funds, if the funds
              were not otherwise recovered.




          Audit of FEMA’s Public Assistance Grant Funds Awarded to
           the Macon Water Authority After Tropical Storm Alberto

                                  Page 13
Appendix A
Objectives, Scope, and Methodology

                   The announced objective of the audit was to determine whether the Authority
                   expended and accounted for FEMA funds according to federal regulations and
                   FEMA guidelines. During the audit, we added an objective to determine
                   whether FEMA’s decision to fund the replacement of the Authority’s
                   Riverside Water Treatment Plant was appropriate.

                   The Authority received a public assistance grant award of $102.6 million from
                   the Georgia Emergency Management Agency (GEMA), a FEMA grantee, for
                   repairs to and replacement of facilities damaged as a result of Tropical Storm
                   Alberto in July 1994. The award provided 90 percent federal funding for
                   25 large projects and 60 small projects. The scope of the audit covered the
                   period July 1994, to November 2004, and included a review of 24 large
                   projects and 60 small projects with a total award of $100.1 million. One large
                   project remained open at the time of our audit and was excluded from our
                   review. Appendix B provides a schedule of the individual projects we
                   audited.

                   We performed the audit under the authority of the Inspector General Act of
                   1978, as amended, and according to Government Auditing Standards issued
                   by the Comptroller General of the United States. The audit included a review
                   of FEMA, GEMA, and Authority records, a judgmental sample of project
                   expenditures, and other auditing procedures considered necessary under the
                   circumstances. We held discussions with FEMA, GEMA, and Authority
                   officials throughout the course of the audit and discussed initial audit results
                   with FEMA Region IV officials on November 21, 2005. We provided FEMA
                   Headquarters and FEMA Region IV officials a draft report for comment on
                   August 29, 2006. We received responses to the draft report from the Acting
                   Regional Director, FEMA Region IV on September 12, 2006. We
                   summarized the Region’s responses in the body of the report and attached a
                   complete text of the Region’s comments as Appendix D to this report.

                   Major contributors to the audit are identified in Appendix E.




                    Audit of FEMA’s Public Assistance Grant Funds Awarded to
                     the Macon Water Authority After Tropical Storm Alberto

                                            Page 14
Appendix B
Schedule of Projects Audited, Questioned Costs, and Funds That Could Have Been Put to
Better Use

                Project              Amount        Amount                  Amount
                Number               Awarded       Claimed                Questioned         Finding
                                              Large Projects
                 14718           $ 66,766,703 $ 66,766,703                $66,766,703            A
                 14714             10,404,981      10,404,981              10,404,981            A
                 14719              7,650,451       7,650,451               7,650,451            A
                 14716              3,067,160       3,067,160               3,067,160            A
                 14717              2,822,761       2,822,761               2,822,761            A
                 90855              2,527,048       2,527,048                  63,093            B
                 14720              2,269,482       2,269,482               2,269,482            A
                 86462                836,796         836,796                       0
                 90854                745,811         745,811                       0
                 90816                457,002         457,002                       0
                 90852                341,871         341,871                       0
                8646415               255,941         255,941                       0
                 14713                244,733         244,733                 244,733            A
                 90830                187,672         187,672                       0
                 14715                240,063         240,063                 240,063            A
                 86465                104,704         104,704                       0
                 90875                114,095         114,095                       0
                 90833                 76,232          76,232                       0
                 90821                 73,637          73,637                       0
                 57974                 83,388          83,388                       0
                 90834                 63,754          63,754                       0
                 90832                 43,892          43,892                       0
                 86469                 46,906          46,906                       0
                8646016                     0                0                      0
                  Subtotal        $99,425,083     $99,425,083             $93,529,427

                                                Small Projects
                90893            $       25,000 $        25,000           $     25,000           C
                Various                 605,191         605,191                      0
                  Subtotal       $      630,191 $       630,191           $     25,000

                       Total     $100,055,274        $100,055,274         $93,554,427
Legend:
Finding A – Ineligible Project Costs (funds that could have been put to better use) 

Finding B – Accounting Errors (costs questioned in the Authority’s claim)

Finding C – Small Project not Completed (costs questioned in the Authority’s claim


15
  DSR 91154 replaced DSR 86464 that was 100 per cent complete in March 1995.
16
  Under project 86460, FEMA de-obligated $385,699 of funds it had obligated for repair of the Authority’s sewer
system. The de-obligation was made to recognize the amount the Authority received from insurance proceeds for those
same repairs. We allocated that reduction to the DSRs (90816, 90821, 90830, 90832, 90833, 93834, and 90852) based
on their individual ratio of the total awarded the Authority for sewer repairs.

                          Audit of FEMA’s Public Assistance Grant Funds Awarded to
                           the Macon Water Authority After Tropical Storm Alberto

                                                      Page 15
Appendix B
Schedule of Projects Audited, Questioned Costs, and Funds That Could Have Been Put to
Better Use



OIG Note: While the first finding in this report questions the grant award to replace the Riverside
Water Treatment Plant in a new location, we are not recommending that the $93.5 million in costs
associated with construction of the new water treatment plant be disallowed from the Authority’s
claim. The finding reports a lost opportunity for FEMA to have put the $93.5 million to a better,
more practicable use. We concluded that FEMA failed to act as good stewards of public funds in
approving this grant and its failure to document the legitimacy of its funding decision calls into
question its propriety.




                       Audit of FEMA’s Public Assistance Grant Funds Awarded to
                        the Macon Water Authority After Tropical Storm Alberto

                                               Page 16
Appendix C
Schedule of Funds Awarded for the Replacement of the Riverside Water Treatment Plant1

                                                           Amount                                       Final
  Project                                                Awarded and            Date Started          Inspection
 Numbers         Project Purpose                          Expended                                       Date
   14719  Design engineering –48
          million gallons per day water
          treatment plant                                       7,650,451        09/07/94 **           01/11/02
   14713  Road improvements                                $      244,733        05/16/96 *            04/17/97
   14718  Water treatment plant
          construction                                         66,766,703        11/04/96 **           02/01/02
   14714  River intake and raw water
          pump station                                         10,404,981        01/16/97 *            05/20/03
   14716  64” finished water main and
          54” raw water main                                    3,067,160        03/31/97 **           03/05/02
   14715  42” finished water main                                 240,063        09/25/97 **           09/30/98
   14717  62” finished water main                               2,822,761        01/27/98 **           07/20/00
   14720  Other professional engineering
          services17                                         2,269,482              Various            09/11/01
          Totals                                           $93,466,334

     * Based on contract award date
     ** Based on available billing information

     As indicated above, design began in September 1994 and the last project related to the plant
     was final inspected in May 2003.




17
  Non-design phase engineering including such services as project management and engineering, and services related to
the booster pump station building.

                           Audit of FEMA’s Public Assistance Grant Funds Awarded to
                            the Macon Water Authority After Tropical Storm Alberto

                                                      Page 17
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 18
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 19
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 20
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 21
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 22
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 23
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 24
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 25
Appendix D
FEMA Region IV’s Response to the Draft Report




                   Audit of FEMA’s Public Assistance Grant Funds Awarded to
                    the Macon Water Authority After Tropical Storm Alberto

                                           Page 26
Appendix E
Major Contributors to this Report

                    Robert J. Lastrico, Audit Division Director
                    Humberto Melara, Supervisory Auditor
                    George Peoples, Supervisory Auditor
                    Ravinder Anand, Auditor
                    Homer Johnson, Auditor




                    Audit of FEMA’s Public Assistance Grant Funds Awarded to
                     the Macon Water Authority After Tropical Storm Alberto

                                            Page 27
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Under Secretary, Management
                      Under Secretary, Federal Emergency Management
                      Chief Financial Officer
                      Chief Information Officer
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief Security Officer
                      Chief Privacy Officer
                      OIG Liaison

                      Federal Emergency Management

                      Director, FEMA Recovery Division
                      OIG Liaison
                      Regional Director, FEMA Region IV

                      Office of Management and Budget

                      Chief, Homeland Security Bureau
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                      Audit of FEMA’s Public Assistance Grant Funds Awarded to
                       the Macon Water Authority After Tropical Storm Alberto

                                              Page 28
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
